APPENDIX

Case: 18-50324, 04/09/2020, ID: 11656061, DktEntry: 46-1, Page 1 of 4

FILED

NOT FOR PUBLICATION

APR 9 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

18-50324

D.C. No.
8:15-cr-00137-CJC-1

v.
JOSE ANTONIO ACEVEDO-LEMUS,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California
Cormac J. Carney, District Judge, Presiding
Submitted April 1, 2020**
Pasadena, California
Before: WARDLAW, MURGUIA, and MILLER, Circuit Judges.
Jose Antonio Acevedo-Lemus was sentenced to sixty months imprisonment
and a lifetime term of supervised release following a conditional guilty plea for
possession of child pornography in violation of 18 U.S.C. §§ 2252A(a)(5)(B),
2252A(b)(2).

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
A1

Case: 18-50324, 04/09/2020, ID: 11656061, DktEntry: 46-1, Page 2 of 4

In January 2015, the Federal Bureau of Investigation (“FBI”) seized the
servers of “Playpen,” an online child pornography bulletin board hosted on servers
located in North Carolina, and began operating the website after moving the
servers to FBI facilities in Newington, Virginia. Then, in February 2015, the FBI
obtained a warrant from a magistrate judge in the Eastern District of Virginia
authorizing use of a Network Investigative Technique (“NIT”) to identify users of
Playpen (the “NIT Warrant”). Using the information gathered from the NIT
Warrant, agents then obtained a local warrant to search Acevedo-Lemus’s
residence. Acevedo-Lemus challenges the district court’s denial of his motion to
suppress evidence, arguing that the NIT Warrant was issued in violation of Federal
Rule of Criminal Procedure 41(b), and that the local warrant was not supported by
probable cause. We have jurisdiction under 28 U.S.C. § 1291 and we affirm.
1.

Acevedo-Lemus acknowledges that his challenge to the NIT Warrant

is foreclosed by our decision in United States v. Henderson, 906 F.3d 1109 (9th
Cir. 2018). Indeed, Henderson addressed the precise warrant at issue here. In
Henderson, we held that the NIT Warrant violated Federal Rule of Criminal
Procedure 41(b), but that suppression was not required under the good-faith
exception to the exclusionary rule. Id. at 1113–15. We see no reason to depart
from that holding here.
2.

Acevedo-Lemus does not establish good cause for his failure to

2

A2

Case: 18-50324, 04/09/2020, ID: 11656061, DktEntry: 46-1, Page 3 of 4

challenge the local warrant in the district court and therefore waived his right to
challenge it on appeal. Under Federal Rule of Criminal Procedure 12, a “‘theory
for suppression not advanced in district court cannot be raised for the first time on
appeal’ absent a showing of good cause.” United States v. Guerrero, 921 F.3d
895, 897–98 (9th Cir. 2019) (quoting United States v. Keesee, 358 F.3d 1217, 1220
(9th Cir. 2004)); see also United States v. Restrepo-Rua, 815 F.2d 1327, 1329 (9th
Cir. 1987) (per curiam). Contrary to Acevedo-Lemus’s contention, the suppression
motion’s passing reference to the local warrant in a section of the motion entitled
“The NIT Warrant Violated the Warrant Clause’s Particularity Requirement” did
not adequately raise the issue. See George v. Morris, 736 F.3d 829, 837 (9th Cir.
2013) (“Although no bright line rule exists to determine whether a matter [has]
been properly raised below, an issue will generally be deemed waived on appeal if
the argument was not raised sufficiently for the trial court to rule on it.” (quoting In
re Mercury Interactive Corp. Sec. Litig., 618 F.3d 988, 992 (9th Cir. 2010))).
“[J]ust as a failure to file a timely motion to suppress evidence constitutes a
waiver, so too does a failure to raise a particular ground in support of a motion to
suppress.” United States v. Wright, 215 F.3d 1020, 1026 (9th Cir. 2000) (quoting
Restrepo-Rua, 815 F.2d at 1329).
3.

But even if Acevedo-Lemus’s challenge to the local warrant were

reviewable, substantial evidence supports a finding of probable cause. The local

3

A3

Case: 18-50324, 04/09/2020, ID: 11656061, DktEntry: 46-1, Page 4 of 4

warrant established that Acevedo-Lemus: (1) became a registered member of
Playpen, which is accessible only if the user knows the exact web address and
installs appropriate software to connect to the network; (2) accessed Playpen for
over eight hours; (3) viewed at least 175 threads on the website, two of which
contained images of child pornography; and (4) accessed an additional post entitled
“Mona” in the forum “Toddlers,” which contained two embedded contact sheets
with thumbnail images of a naked baby. Furthermore, the affidavit supporting the
local warrant established that users had to take “numerous affirmative steps” to
access Playpen, “making it extremely unlikely that any user could have simply
stumbled upon [Playpen] without first understanding its content and knowing that
its primary purpose was to advertise and distribute child pornography.” Because
probable cause “requires only a probability or substantial chance of criminal
activity, not an actual showing of such activity,” District of Columbia v. Wesby,
138 S. Ct. 577, 586 (2018) (emphasis added) (quoting Illinois v. Gates, 462 U.S.
213, 243–44 n.13 (1983)), we conclude that probable cause supported the local
warrant.
AFFIRMED.

4

A4

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 1 of 18 Page ID #:487

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

SOUTHERN DIVISION

11
12
13
14
15
16
17
18
19
20
21
22

)
) Case No.: SACR 15-00137-CJC
)
)
UNITED STATES OF AMERICA,
)
)
)
Plaintiff,
) ORDER DENYING DEFENDANT’S
) MOTION TO SUPPRESS
v.
)
)
JOSE ANTONIO ACEVEDO-LEMUS, )
)
)
)
Defendant.
)
)
)
)
)
)

23
24

I. INTRODUCTION AND BACKGROUND

25
26
27

In December 2014, a foreign law enforcement agency advised the FBI that a
known child pornography website called “Playpen” appeared to be associated with a

28
-1-

A5

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 2 of 18 Page ID #:488

1

United States-based IP address.1 (Dkt. 32 Ex. A at 6–37 [“Macfarlane Aff.”] ¶ 28.) An

2

ensuing investigation confirmed that Playpen was hosted by a server located in North

3

Carolina. (Id.) The FBI obtained a search warrant for the location of the server in

4

January 2015, seized the server, and found a copy of Playpen on it. (Id.)

5
6

Playpen operated as a “hidden service” located on an anonymity network known as

7

“The Onion Router,” or “Tor.” (Macfarlane Aff. ¶¶ 6–7.) Ordinarily, public websites log

8

the IP addresses of all visiting users. It is therefore an easy task for law enforcement to

9

discover who has visited a certain website—or, alternatively, which websites a computer

10

with a particular IP address has visited. The Tor network does not operate this way.

11

Instead, to even access the network, a user must first download and install particular

12

software, which subsequently shields the user’s IP address by relaying it among

13

“nodes”—computers run by volunteers all over the world. (Id. ¶ 8.) When a user visits a

14

website located on the Tor network—like Playpen, for example—his actual IP address is

15

not shown. Instead, Playpen can only see the IP address of the Tor “exit node”—the final

16

relay computer which sent the user’s communication to Playpen. (Id.) This deliberate

17

concealment of IP addresses makes it exceptionally difficult for law enforcement to

18

determine who has visited a website or hidden service located on the Tor network, as

19

there is no practical way to trace a user’s IP address back through the Tor nodes. (Id.)

20

Once on the Tor network, a user must know a website’s particular web address to

21
22

visit it. (He may not, as on the traditional or “open” Internet, simply perform an Internet

23

search for certain material, since websites on the Tor network are not indexed like

24

websites on the open Internet.) (Macfarlane Aff. ¶ 10.) Tor users must obtain web

25
26
27
28

1

“An IP address is a number that an Internet Service Provider assigns to devices that are connected to
the Internet. . . . The Internet Service Provider to which an internet user subscribes can correlate the
user’s IP address to the user’s true identity.” Third Degree Films, Inc. v. John Does 1 through 4, No.
12-CV-1849 BEN (BSG), 2013 WL 3762625, at *1 (S.D. Cal. July 16, 2013).
-2-

A6

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 3 of 18 Page ID #:489

1

addresses from each other, or by viewing Internet postings describing the content

2

available on certain websites. (Id.) The Tor network contains a “hidden service” page

3

that is dedicated to pedophilia and child pornography, and Playpen’s web address is listed

4

on that page. (Id.) It would be highly unusual for a user to stumble upon Playpen. He

5

would first have to elect to download Tor software and access the “dark web,” where Tor

6

websites are hosted, and then he would be required to affirmatively locate Playpen’s web

7

address before reaching Playpen.

8
9

Users who entered Playpen’s web address arrived at a main page which contained

10

images of two partially clothed prepubescent females with their legs spread apart, along

11

with text stating, “No cross-board reposts, .7z preferred, encrypt filenames, include

12

preview, Peace out.” (Macfarlane Aff. ¶ 12.) This text apparently referred to a ban on

13

posting material from other message boards, an indication of which file compression

14

method was preferable, and instructions on what to include with posted materials. (Id.)

15

Adjacent to the text were fields for users to enter login credentials, and a hyperlink for

16

new users to “register an account with Playpen.” (Id.) Upon clicking the “register an

17

account” hyperlink, users were taken to additional text which explained that Playpen

18

required an email address but that rather than entering their real email address, users

19

should simply enter a made-up address: “something that matches the xxx@yyy.zzz

20

pattern.” (Id. ¶ 13.) Users who successfully registered for the service by entering a false

21

email address were then taken to a page containing Playpen’s forums and subforums. (Id.

22

¶ 14.)

23

Playpen was entirely devoted to the publication and exchange of child

24
25

pornography. Its forums, where Playpen users could post materials, bore titles such as

26

“Jailbait Videos”2 (of both “Girls” and Boys”), “Pre-teen Videos,” “Pre-teen Photos,” and

27
28
2

“Jailbait” refers to underage but post-pubescent minors.
-3-

A7

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 4 of 18 Page ID #:490

1

“Webcams” (again, divided by gender), “Family Playpen – Incest,” and “Toddlers.”

2

(Macfarlane Aff. ¶ 14.) Playpen also maintained a “Kinky Fetish” forum that included

3

subforums like “Bondage,” “Peeing,” “Scat,” “Spanking,” “Voyeur,” and “Zoo.” (Id.) In

4

addition to these forums and subforums, Playpen included three other important features.

5

The first, called “Playpen Image Hosting,” allowed Playpen users to upload links to

6

images of child pornography. (Id. ¶ 23.) The links were then available to all registered

7

Playpen users. (Id.) The second, “Playpen File Hosting,” similarly allowed users to

8

upload videos of child pornography, which were then available to Playpen registered

9

users. (Id. ¶ 24.) The third, “Playpen Chat,” permitted users to post links to child

10

pornography for other users who were logged into Playpen Chat at the same time. (Id.

11

¶ 25.) The link to Playpen Chat was on Playpen’s main index page. (Id.)

12
13

The FBI’s review of Playpen’s forums and subforums, as well as its Playpen Image

14

Hosting, Playpen File Hosting, and Playpen Chat features, revealed links to numerous

15

depictions of what appeared to be child pornography. A representative sampling of those

16

depictions is as follows:

17
18
19
20
21

 An image of a prepubescent or early pubescent female being orally penetrated by
the penis of a naked male. (Macfarlane Aff. ¶ 18.)
 A video of a prepubescent female, naked from the waist down, being anally
penetrated by the penis of a naked adult male. (Id. ¶ 18.)

22

 Images focused on the nude genitals of a prepubescent female. (Id. ¶ 23.)

23

 A video of an adult male masturbating and ejaculating into the mouth of a nude

24
25
26
27
28

prepubescent female. (Id. ¶ 24.)
 An image of two prepubescent females lying on a bed with their genitals exposed.
(Id. ¶ 25.)
 An image of four females, including at least two prepubescent females, performing
oral sex on one another. (Id. ¶ 25.)
-4-

A8

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 5 of 18 Page ID #:491

The FBI seized a copy of the server hosting Playpen in January 2015. (Macfarlane

1
2

Aff. ¶ 28.) The nature of the Tor network, however, prevented the FBI from identifying

3

Playpen users, since Playpen’s “logs of member activity . . . contain[ed] only the IP

4

addresses of Tor ‘exit nodes’ utilized by board users.” (Id. ¶ 29.) Accordingly, on

5

February 19, 2015, the FBI executed a court-authorized search at the Naples, Florida

6

residence of the suspected administrator of Playpen. (Id. ¶ 30.) The administrator was

7

apprehended, and the FBI managed to assume administrative control of Playpen. (Id.)

8

The FBI then devised a plan to determine the identities of Playpen users: it would, while

9

running Playpen from a server in Virginia, reconfigure the website to deploy a network

10

investigative technique (“NIT”) any time a user downloaded content from Playpen. (Id.

11

¶ 33.) As Douglas Macfarlane, an FBI Special Agent, subsequently explained,

12

In the normal course of operations, websites send content to visitors. A
user’s computer downloads that content and uses it to display web pages on
the user’s computer. [Upon deployment of the NIT, Playpen,] which will be
located in Newington, Virginia, . . . would augment that content with
additional computer instructions. When a user’s computer successfully
downloads those instructions from [Playpen], the instructions, which
comprise the NIT, are designed to cause the user’s “activating” computer to
transmit certain information to a computer controlled by or known to the
government.

13
14
15
16
17
18
19
20
21

(Macfarlane Aff. ¶ 33.) Specifically, the NIT would reveal to the government seven
items:

22
23
24
25
26
27
28

1. The activating computer’s IP address, and the date and time that the NIT
determined what that IP address was;
2. A unique identifier generated by the NIT to distinguish the data from that of other
activating computers;
3. The type of operating system running on the computer;
4. Information about whether the NIT had already been delivered to the computer;
-5-

A9

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 6 of 18 Page ID #:492

1

5. The activating computer’s host name;

2

6. The activating computer’s operating system username; and

3

7. The activating computer’s Media Access Control (“MAC”) address.

4
5

(Id. ¶ 34.)

6
7

On February 20, 2015, the FBI sought a warrant to deploy the NIT for thirty days.

8

(Dkt. 32 Ex. A [the “NIT Warrant”].) The warrant application explained the nature of

9

Playpen, the investigative difficulties presented by Playpen users’ use of the Tor network,

10

the operation of the NIT, and the fact that the NIT could cause activating computers—

11

“wherever located”—to disclose the seven pieces of information noted above. (See

12

generally Macfarlane Aff.; see also id. ¶ 48.) The warrant was signed by Theresa Carroll

13

Buchanan, a United States Magistrate Judge for the Eastern District of Virginia. (NIT

14

Warrant at 1.)

15
16

Deployment of the NIT Warrant revealed that a Playpen user with the username

17

“DarkYogi” viewed at least 175 threads on Playpen during the deployment of the NIT,

18

including at least two threads containing files that appeared to the government to be child

19

pornography. (Dkt. 32 Ex. C at 1–30 [“Wrathall Aff.”] ¶ 26.) The first file depicts a

20

nude white prepubescent girl with her mouth open and her hand on an adult male erect

21

penis that appears to be ejaculating into the girl’s mouth. (Id.) The second file contains a

22

visual depiction of a female white toddler with no pants on being vaginally penetrated by

23

the erect penis of an adult male. (Id.) The NIT acquired the IP address of the user’s

24

computer, which—a search of publicly available websites revealed—was operated by

25

Time Warner Cable. (Id. ¶¶ 27–28.) In March 2015, the government served an

26

administrative subpoena on Time Warner, who indicated that the IP address in question

27

was assigned to Defendant Jose Acevedo at a residence in Anaheim, California. (Id.

28

¶ 29.) The FBI confirmed that Defendant indeed lived at the Anaheim address and then
-6-

A10

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 7 of 18 Page ID #:493

1

obtained a search warrant authorizing the search of Defendant’s home for evidence of

2

child pornography. (Id. ¶¶ 30–33; see generally id.) The FBI executed the search,

3

interviewed Defendant, and seized a Hewlett Packard computer with a Western Digital

4

hard drive and a SanDisk Cruzer thumb/flash drive. The hard drive and flash drive were

5

found to contain 210 videos of child pornography and 31 still images of child

6

pornography. A grand jury subsequently returned an indictment against Defendant for

7

two counts of knowingly possessing child pornography. (See Dkt. 1.)

8
9

Defendant now moves for the suppression of all evidence stemming from the NIT

10

Warrant. He argues that that warrant (1) violated the Fourth Amendment and

11

(2) exceeded the magistrate’s authority under Federal Rule of Criminal Procedure 41(b).

12

(Dkt. 28.) The Court concludes that the FBI’s acquisition of the key piece of information

13

here—Defendant’s IP address—was not a search under the meaning of the Fourth

14

Amendment, and therefore did not require a warrant. The Court also concludes that in

15

any event, suppression would not be an appropriate remedy for a Fourth Amendment

16

violation in these circumstances. Accordingly, Defendant’s motion is DENIED.

17
18

II. DISCUSSION

19
20

A. The NIT’s Acquisition of Defendant’s IP Address Was Not a Search

21
22

The Fourth Amendment to the U.S. Constitution provides that “[t]he right of the

23

people to be secure in their persons, houses, papers, and effects, against unreasonable

24

searches and seizures, shall not be violated.” “As a prerequisite to establishing the

25

illegality of a search under the Fourth Amendment, a defendant must show that he had a

26

reasonable expectation of privacy in the place searched.” United States v. Heckencamp,

27

482 F.3d 1142, 1146 (9th Cir. 2007). A defendant may do so by demonstrating a

28

“subjective expectation that his activities would be private [and that] his expectation was
-7-

A11

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 8 of 18 Page ID #:494

1

one that society is prepared to recognize as reasonable.” United States v. Bautista, 362

2

F.3d 584, 589 (9th Cir. 2004). Defendant can do neither here.

3

1. Defendant Lacked a Subjective Expectation of Privacy in His IP

4

Address Because He Routinely Disclosed It to Others

5
6
7

First, Defendant could not have had a subjective expectation that his IP address3

8

would remain private because he routinely disclosed it to third parties, including Time

9

Warner, the Tor network, and websites he visited on the open Internet. “What a person

10

knowingly exposes to the public, even in his own home or office, is not a subject of

11

Fourth Amendment protection.” Katz v. United States, 389 U.S. 347, 351 (1967).

12

Applying this principle, the Ninth Circuit has on a number of occasions concluded that

13

Internet users do not have reasonable expectations of privacy in their own IP addresses or

14

the IP addresses of the websites they visit. See United States v. Forrester, 512 F.3d 500,

15

510 (9th Cir. 2007) (“Internet users have no expectation of privacy in the . . . IP addresses

16

of the websites they visit because they should know that this information is provided to

17

and used by Internet service providers for the specific purpose of directing the routing

18

information.”); Heckencamp, 482 F.3d 1142, 1148 (holding that a defendant had “no

19

reasonable expectation of privacy” in “network logs” that contained his computer’s IP

20

address); United States v. Martinez, 588 Fed. Appx. 741 (Mem.) (9th Cir. 2014)

21

(unpublished) (“The use by law enforcement of proprietary forensic software packages

22

that revealed information, such as hash values and IP addresses, did not make the search

23

unlawful, as there was no reasonable expectation of privacy in this information[.] It was

24

available to others, even though they may not have known how to view it.”). Multiple

25
26
27
28

3

Although the NIT seized seven pieces of information, the parties apparently agree that the crucial
piece of information was Defendant’s IP address. The warrant to search Defendant’s home makes clear
that it was this information, not anything else identified by the NIT, that led the FBI to Defendant.
(Wrathall Aff. ¶¶ 7; 27–33.) The search warrant did not rely on any of the other six pieces of
information, and the Court will limit its analysis to the fruits of the IP address.
-8-

A12

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 9 of 18 Page ID #:495

1

district courts who have entertained motions to suppress evidence stemming from the

2

NIT Warrant are in accord. United States v. Matish, --- F. Supp. 3d. ----, 2016 WL

3

3545776, at *21 (E.D. Va. June 23, 2016) (holding that the FBI “did not need to obtain a

4

warrant before deploying the NIT” because the defendant had “no reasonable expectation

5

of privacy in his IP address”); United States v. Werdene, --- F. Supp. 3d ----, 2016 WL

6

3002376, at III.B (E.D. Pa. May 18, 2016) (holding that because the defendant “did not

7

have a reasonable expectation of privacy in his IP address, the NIT cannot be considered

8

a ‘search’ within the meaning of the Fourth Amendment”); United States v. Michaud,

9

Case No. 3:15-cr-05351-RJB, 2016 WL 337263, at *7 (W.D. Wash. Jan. 28, 2016)

10

(“[The defendant] has no reasonable expectation of privacy of [sic] the most significant

11

information gathered by deployment of the NIT, [his] assigned IP address[.]”); but see

12

United States v. Darby, --- F. Supp. 3d ----, 2016 WL 3189703, at *6 (E.D. Va. June 3,

13

2016) (concluding that the NIT constituted a search, but noting that the government did

14

not argue otherwise); United States v. Arterbury, Case No. 15-CR-182-JHP (N.D. Okla.

15

Apr. 25, 2016) (report and recommendation) (concluding that the defendant had a

16

reasonable expectation of privacy in his IP address because the government obtained the

17

information from his computer, and not from a third party).

18
19

Two peculiar facts in this case—first, that the FBI obtained Defendant’s IP address

20

from his computer, not from a third party, and second, that Defendant attempted to

21

obscure his IP address by using the Tor network—do not alter this conclusion.

22
23

First, it does not matter that the government procured Defendant’s IP address from

24

his computer as opposed to getting it from a third party because an IP address is not a

25

private physical feature of a computer, but a commonly disclosed digital one assigned by

26

a third party. When a consumer purchases a computer, takes it home, opens it up, and

27

turns it on, that computer does not have an IP address. Instead, it is assigned an IP

28

address by an internet service provider (like Time Warner) when it connects to a
-9-

A13

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 10 of 18 Page ID #:496

1

particular network, and that IP address may change if the computer connects to a

2

different network. See Matish, 2016 WL 3545776, at *21 (“[The defendant’s] IP address

3

was not located on his computer, indeed, it appears that computers can have various IP

4

addresses depending on the networks to which they connect.”). It is not completely

5

accurate to say that the government accessed Defendant’s computer to retrieve his IP

6

address, as the IP address is not a physical component of the computer. Instead, when

7

Defendant downloaded content from Playpen, the government sent along some code that

8

directed Defendant’s computer to disclose to the government a feature of Defendant’s

9

connection—his IP address. Cf. id. at *21 (“[The defendant’s] IP address was revealed in

10

transit when the NIT instructed his computer to send other information to the FBI.”).

11

And—crucially—the FBI was only able to deploy the NIT to Defendant’s computer after

12

Defendant sought Playpen out. The FBI did not come looking for Defendant. Instead, it

13

waited until he came to them and engaged in illicit activity by downloading content from

14

Playpen. The government allowed him to download that content but also sent him home

15

with an unexpected souvenir: code that would reveal his IP address.

16
17

In that sense this case is very much like United States v. Knotts, 460 U.S. 276

18

(1983). There, the government—with a storeowner’s consent—installed a “beeper” in a

19

drum of chloroform subsequently purchased by an individual whom the government

20

suspected of drug production. Id. at 277. After the drum was purchased and placed in

21

the trunk of a vehicle, agents followed the vehicle, both maintaining visual contact and

22

monitoring electronic signals from the beeper. Id. at 278. Eventually, the vehicle made

23

“evasive maneuvers,” and both visual and electronic contact were lost. Id. A helicopter

24

with another monitor later picked up the signal, however, and tracked it to a cabin. Id.

25

After performing additional surveillance of the cabin, the government obtained a

26

residential search warrant, based on part on the electronic tracking of the chloroform

27

drum. Id. The search revealed a drug lab, and the defendant moved to suppress, arguing

28

that the tracking of the beeper was an unreasonable search.
-10-

A14

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 11 of 18 Page ID #:497

1

The Supreme Court refused to suppress the evidence. It explained that the

2

government had made “limited use” of the beeper, acquiring only information that the

3

driver of the vehicle had “voluntarily conveyed” to the public—namely, the location of

4

the vehicle and its ultimate destination. Id. at 281. (Nothing in the record indicated that

5

the government had received or relied upon beeper signals after concluding that the

6

“drum containing the chloroform had ended its automotive journey,” id. at 284–85.)

7

True, the “failure of visual surveillance” meant that the beeper gave law enforcement

8

officials information they could not have acquired otherwise. Id. at 285. The crucial fact

9

in the Supreme Court’s view, however, was that the information law enforcement did

10

acquire was ordinarily public, and “[n]othing in the Fourth Amendment prohibited the

11

police from augmenting the sensory faculties bestowed upon them at birth with such

12

enhancement as science and technology afforded them.” Id. at 282. And although the

13

Knotts Court warned that “dragnet type law enforcement practices” involving the use of

14

beepers may present a more difficult constitutional question, it concluded that the

15

government’s monitoring of the beeper constituted neither a search nor a seizure under

16

the meaning of the Fourth Amendment. Id. at 285.

17
18

Knotts was recently distinguished by United States v. Jones, where the Supreme

19

Court ruled that the warrantless installation of a GPS tracker on a suspect’s car was a

20

search. 132 S. Ct. 945 (2012). That case was different from Knotts, the Supreme Court

21

explained, in two ways. First, the beeper in Knotts was installed in the drum of

22

chloroform before the drum came into the defendant’s possession. In Jones, by contrast,

23

the GPS device was installed on a car already owned and possessed by the defendant’s

24

wife. Jones, 132 S. Ct. at 952 (reasoning that “Jones, who possessed the Jeep at the time

25

the Government trespassorily inserted the information-gathering device, [wa]s on much

26

different footing” from the defendants in Knotts and another beeper case, United States v.

27

Karo, 468 U.S. 705 (1984).) Second, the Jones Court noted the Knotts Court’s emphasis

28

on the “limited use” of the beeper, as well as its reservation of the constitutionality of
-11-

A15

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 12 of 18 Page ID #:498

1

warrantless “dragnet type law enforcement practices,” see Knotts, 460 U.S. at 284.

2

Jones, the Supreme Court said, involved a long-term, “dragnet-style” search and was

3

therefore not a “limited use” case like Knotts. Jones, 132 S. Ct. at 952 n.6.

4
5

These two distinctions illustrate why Knotts, not Jones, is the correct analogue in

6

this case. First, as in Knotts, the information-gathering technique used here was

7

originally installed on something controlled by the government—Playpen content—and

8

only then transferred to Defendant’s computer, at Defendant’s request. Defendant is

9

therefore “on much different footing” than the defendant in Jones, 132 S. Ct. at 952, and

10

instead is like the defendant in Knotts who unknowingly purchased the bugged

11

chloroform. And second, the NIT obtained very limited information from Defendant’s

12

computer. It did not, for example, search for files containing child pornography or

13

otherwise inspect the computer’s contents. Indeed, its crucial operation was only to

14

acquire a piece of information, normally public and often disclosed to third parties, that

15

Defendant had managed to successfully obscure from the FBI: his IP address.

16
17

It also does not matter that Defendant tried to shield his IP address from the

18

government, since he nonetheless disclosed that information to the initial Tor “entry

19

node.” As the Werdene court explained, “a necessary aspect of Tor is the initial

20

transmission of a user’s IP address to a third-party”—the operator of the initial Tor

21

node—and the fact that a user’s IP address is “subsequently bounced from node to node

22

within the Tor network to mask his identity does not alter the analysis of whether he had

23

an actual expectation of privacy in that IP address,” which he had initially disclosed to a

24

stranger. Werdene, 2016 WL 3002376, at III.A; see also United States v. Farrell, No.

25

CR15-029RAJ, 2016 WL 705197, at *2 (W.D. Wash. Feb. 23, 2016) (holding that a

26

defendant had no expectation of privacy in his IP address, which he concealed through

27

Tor, because “in order for a prospective user to use the Tor network they must disclose

28

information, including their IP addresses, to unknown individuals running Tor nodes”).
-12-

A16

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 13 of 18 Page ID #:499

1

Here again, Knotts is on point. Just as the Supreme Court would not countenance the

2

possibility that the Knotts defendant’s “evasive” driving maneuvers could permit him to

3

escape law enforcement’s technological tools, so too Defendant may not escape

4

responsibility here merely because he managed to disclose his IP address to Tor but not

5

to the government. That result was unacceptable more than thirty years ago in Knotts,

6

and it is unacceptable today. Mere disclosure by a computer of its IP address—a

7

hallmark of Internet communication—does not become a Fourth Amendment search

8

when the government happens to be the party to whom disclosure occurs. Simply put,

9

Defendant could not have had a subjective expectation of privacy in his IP address.

10
11

2. Society Does Not Recognize Defendant’s Expectation as Reasonable

12
13

Defendant also cannot demonstrate that any subjective expectation of privacy he

14

may have had in his IP address is an expectation that “society is prepared to recognize as

15

‘reasonable,’” Katz, 389 U.S. at 361. Defendant opened his computer, got on the

16

Internet, and went searching for child pornography. In an attempt to evade detection by

17

law enforcement, he used Tor, hoping to mask his IP address from government

18

investigators. American society abhors child pornography, and it does not view

19

Defendant’s deceptive efforts to conceal his viewing of child pornography as establishing

20

a reasonable expectation of privacy. Werdene, 2016 WL 3002376, at III.B (noting that

21

the defendant’s “use of Tor to view and share child pornography is not only an activity

22

that society rejects, but one that it seeks to sanction”); Matish, 2016 WL 3545776, at *24

23

(“Society thus is unprepared to recognize any privacy interests [the defendant] attempts

24

to claim as reasonable in his search for pornographic material.”); cf. Rakas v. Illinois, 439

25

U.S. 128, 143 n.12 (1978) (“[A] burglar plying his trade in a summer cabin during the off

26

season may have a thoroughly justified subjective expectation of privacy, but it is not one

27

which the law recognizes as ‘legitimate.’”). Contrary to his assertions, Defendant cannot

28

conceal his deviant behavior through Internet tricks. Werdene, 2016 WL 3002376, at
-13-

A17

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 14 of 18 Page ID #:500

1

III.B (rejecting the defendant’s attempt to “serendipitously receive Fourth Amendment

2

protection because he used Tor in an effort to evade detection”); Matish, 2016 WL

3

3545776, at *24 (“[The defendant] should not be rewarded for allegedly obtaining

4

contraband through his virtual travel through interstate commerce on a Tor hidden

5

service.”). Indeed, this Court agrees with the Matish court that the government “should

6

be able to use the most advanced technological means to overcome criminal activity that

7

is conducted in secret.” Matish, 2016 WL 3545776, at *24. Law enforcement cannot

8

afford to be hamstrung by technologically creative criminals, especially when what is at

9

risk is the sexual exploitation and sadistic abuse of children.

10

B. Suppression is Unwarranted in Any Event

11
12

Suppression would not be the proper remedy regardless of whether the FBI’s

13
14

deployment of the NIT was a search. “[S]uppression is not an automatic consequence of

15

a Fourth Amendment violation. Instead, the question turns on the culpability of the

16

police and the potential of exclusion to deter wrongful police conduct.” Herring v.

17

United States, 555 U.S. 135, 137 (2009). Defendant argues that the evidence stemming

18

from the NIT Warrant must be suppressed because the NIT Warrant inappropriately

19

authorized an out-of-district search of his computer.4 See Fed. R. Crim. P. 41(b) (“[A]

20
21
4

22
23
24
25
26
27
28

Defendant’s alternative argument—that the NIT Warrant failed the Fourth Amendment’s particularity
requirement—is without merit. That argument has been rejected, as near as the Court can tell, by every
federal court to consider it. See, e.g., Matish, 2016 WL 3545776, at *14 (finding that “the NIT Warrant
did not violate the Fourth Amendment’s particularity requirement” because “there existed a fair
probability that anyone accessing Playpen possessed the intent to view and trade child pornography”);
Michaud, 2016 WL 337263, at *5 (“Although the FBI may have anticipated tens of thousands of
potential suspects as a result of deploying the NIT, that does not negate particularity, because it would
be highly unlikely that [Playpen] would be stumbled upon accidentally, given the nature of the Tor
network.”); United States v. Epich, Case No. 15-CR-163-PP, 2016 WL 953269, at *2 (E.D. Wis. Mar.
14, 2016) (concluding that the NIT Warrant satisfied the particularity requirement because it “explained
who was subject to the search, what information the NIT would obtain, the time period during which the
NIT would be used, and how it would be used, as well as bearing attachments describing the place to be
searched and the information to be seized”).
-14-

A18

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 15 of 18 Page ID #:501

1

magistrate judge with authority in the district . . . has authority to issue a warrant to

2

search for and seize a person or property located within the district.”). He is incorrect.

3
4

1. Any Rule 41 Violation Does Not Require Suppression

5
6

In the Ninth Circuit, suppression is only available for Rule 41 violations if “1) the

7

violation rises to a constitutional magnitude; 2) the defendant was prejudiced, in the sense

8

that the search would not have occurred or would not have been so abrasive if law

9

enforcement had followed the Rule; or 3) officers acted in intentional and deliberate

10

disregard of a provision in the Rule.” United States v. Weiland, 420 F.3d 1062, 1071 (9th

11

Cir. 2005). For reasons the Court has already explained, no violation of “constitutional

12

magnitude” has occurred here because Defendant had no reasonable expectation of

13

privacy in his IP address. See Werdene, 2016 WL 3002376, at III.B (“Since [the

14

defendant] did not have a reasonable expectation of privacy in his IP address, . . . the

15

violation [of Rule 41] is therefore not constitutional.”). Nor was Defendant prejudiced by

16

any potential Rule 41 violation. After all, the FBI could have installed copies of Playpen

17

in every judicial district in the country (there are 94) and then secured a corresponding

18

number of Rule 41 warrants. It only chose not to do so because of the enormous burden

19

and expense of such an undertaking. But the fact remains that the issuance of a modified

20

NIT Warrant that fully complied with even a narrow reading of Rule 41 was entirely

21

possible. Defendant’s argument that he was prejudiced by this search boils down to an

22

assertion that his consumption of child pornography was totally immunized by his use of

23

Tor, and there was nothing the government could do about it. Not so.

24
25

Finally, there is no reason to believe that the FBI intentionally and deliberately

26

violated Rule 41 by seeking the NIT Warrant. As an initial matter, there are credible

27

arguments to be made that Rule 41 was never violated at all, casting doubt on

28

Defendant’s assertion that the FBI was knowingly flouting the Rule. Rule 41(b)(4), for
-15-

A19

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 16 of 18 Page ID #:502

1

example, provides that a magistrate judge may “issue a warrant to install within the

2

district a tracking device” and that the warrant “may authorize use of the device to track

3

the movement of a person or property located within the district, outside the district, or

4

both[.]” It is not a stretch to say that the NIT functioned as a permissible “tracking

5

device” attached to child pornography that was subsequently downloaded by Defendant

6

when his computer sent a request to the Playpen server. Indeed, at least two district

7

courts have agreed with this position. See Matish, 2016 WL 3545776, at *18 (“[T]he

8

NIT Warrant authorized the FBI to install a tracking device on each user’s computer

9

when that computer entered the Eastern District of Virginia . . . [w]hen that computer left

10

Virginia—when the user logged out of Playpen—the NIT worked to determined its

11

location . . . all relevant events occurred in Virginia.”); United States v. Darby, ---

12

F. Supp. 3d ----, 2016 WL 3189703, at *12 (E.D. Va. June 3, 2016) (holding that Rule

13

41(b)(4) authorized the NIT Warrant because “[u]sers of Playpen digitally touched down

14

in the Eastern District of Virginia” and the FBI was then entitled to install a tracking

15

device); but see Michaud, 2016 WL 337263, at *6 (rejecting the argument that Rule

16

41(b)(4) permitted the NIT Warrant); United States v. Levin, --- F. Supp. 3d ----, 2016

17

WL 2596010, at *6 (D. Mass. May 5, 2016) (same). The fact that courts are presently

18

divided over whether the NIT Warrant even violated Rule 41 is compelling evidence that

19

the FBI did not intentionally and deliberately violate that Rule by seeking the warrant in

20

the first instance.

21
22

Moreover, as the government points out, the Supreme Court has recently

23

recommended that Rule 41 be modified to explicitly permit magistrate judges to “issue a

24

warrant to use remote access to search electronic storage media and to seize or copy

25

electronically stored information located within or outside that district if . . . the district

26

where the media is located has been concealed through technological means.” (Dkt. 38

27

Ex. B at 6.) Defendant takes this proposed amendment to mean that the FBI knew it was

28

operating outside Rule 41. But the amendment actually cuts the other way. It would be
-16-

A20

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 17 of 18 Page ID #:503

1

strange indeed for the Court to suppress the evidence in this case in the face of a strong

2

signal from the Supreme Court that Rule 41 should explicitly permit the issuance of

3

warrants like the NIT Warrant. The severe penalty of suppression should not be levied

4

against the government (and society generally) merely because the government had the

5

good sense to seek an amendment to Rule 41.

6

2. The Good Faith Exception Applies

7
8

Even in the presence of a violation, the good faith exception to the exclusionary

9
10

rule would bar suppression here.5 Application of the exclusionary rule is only

11

appropriate in those “unusual cases” where suppression will “deter police misconduct.”

12

United States v. Leon, 468 U.S. 897, 916, 918 (1984). When police officers “acting with

13

objective good faith ha[ve] obtained a search warrant from a judge or magistrate and

14

acted within its scope,” there is “no police illegality and thus nothing to deter.” Id. at

15

920–21.

16

Here, Defendant’s technical sophistication meant that to adequately prosecute the

17
18

child pornography laws, FBI agents were required to design a tool that was up to the task.

19

The NIT was the solution. FBI agents were, at every juncture, up front with the

20

magistrate judge about how the NIT worked, what it would seize from “activating

21

computers,” and where “activating computers” could be located. (Macfarlane Aff. ¶ 48.)

22

That Rule 41 may not yet be a perfect fit for our technological world does not mean that

23

the FBI agents here acted in bad faith.

24
25
26
27
28

5

Traditional limitations on the exclusionary rule, like the good faith exception and the balancing of the
costs of suppression against any violation, still apply in the Rule 41 context, since the suppression
provisions of Rule 41 are “no broader than the constitutional rule,” Alderman v. United States, 394 U.S.
165, 173 n.6 (1969).
-17-

A21

Case 8:15-cr-00137-CJC Document 42 Filed 08/08/16 Page 18 of 18 Page ID #:504

1

The costs of suppression also weigh against that remedy in this case. Defendant

2

proposes that he and other viewers and distributors of child pornography can escape

3

capture and continue their viewing and distribution so long as they use Tor, while society

4

and the children victimized by their behavior continue to suffer. That would be

5

repugnant to justice and the purpose of law. As the Supreme Court has explained,

6
7
8
9
10
11
12

The [good faith] analysis must also account for the substantial social costs
generated by the [exclusionary] rule. Exclusion exacts a heavy toll on both
the judicial system and society at large. It almost always requires courts to
ignore reliable, trustworthy evidence bearing on guilt or innocence. And its
bottom-line effect, in many cases, is to suppress the truth and set the
criminal loose in the community without punishment. Our cases hold that
society must swallow this bitter pill when necessary, but only as a last resort.
For exclusion to be appropriate, the deterrence benefits of suppression must
outweigh its heavy costs.

13
14

Davis v. United States, 564 U.S. 229, 237 (2011) (internal citations and quotation marks

15

removed). Considering the unspeakable harm caused by child pornography, and the

16

creative and limited conduct of the FBI that was undertaken to mitigate that harm, the

17

Court has no trouble concluding that suppression is entirely unwarranted here.

18
19

III. CONCLUSION

20
21

For the foregoing reasons, Defendant’s motion to suppress is DENIED.

22
23
24
25
26

DATED:

August 8, 2016
__________________________________
CORMAC J. CARNEY

27
28

UNITED STATES DISTRICT JUDGE
-18-

A22

A23

A24

A25

A26

A27

A28

A29

A30

A31

A32

A33

A34

A35

A36

A37

A38

A39

A40

A41

A42

A43

A44

A45

A46

A47

A48

A49

A50

A51

A52

A53

A54

A55

A56

A57

A58

A59

A60

A61

A62

A63

A64

A65

A66

A67

A68

A69

A70

A71

A72

A73

A74

A75

A76

A77

A78

A79

A80

A81

A82

A83

A84

A85

A86

A87

A88

A89

A90

A91

A92

A93

A94

A95

A96

A97

A98

A99

A100

A101

